                          U.S. Department of Agriculture

                             Office of Inspector General
                              Financial & IT Operations




              Audit Report

        U.S. Department of Agriculture
    Office of the Chief Information Officer
Fiscal Year 2008 Federal Information Security
           Management Act Report




                               Report No. 50501-13-FM
                                      September 2008
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                              OFFICE OF INSPECTOR GENERAL

                                   Washington D.C. 20250




September 30, 2008



The Honorable Jim Nussle
Director
Office of Management and Budget
Eisenhower Executive Office Building
1650 Pennsylvania Avenue NW.
Washington, D.C. 20503

Subject: U.S Department of Agriculture Office of the Chief Information Officer
         Fiscal Year 2008 Federal Information Security Management Act Report
         (Audit Report No. 50501-13-FM)

Dear Mr. Nussle:

This report presents the results of our audits of the Department of Agriculture’s (USDA)
efforts to improve the management and security of its information technology (IT)
resources. USDA and its agencies have taken numerous actions to improve the security
over their IT resources; however, additional actions are still needed toward establishing
an effective security program.

Sincerely,


/s/

Phyllis K. Fong
Inspector General
Executive Summary
U.S. Department of Agriculture Office of the Chief Information Officer
Fiscal Year 2008 Federal Information Security Management Act Report (Audit
Report No. 50501-13-FM)

Results in Brief                 The efforts of the U.S. Department of Agriculture’s (USDA) Office of the
                                 Chief Information Officer (OCIO) and the Office of Inspector General
                                 (OIG) over the past several years have continued to heighten program
                                 managers’ awareness of the need to plan and implement effective
                                 information technology (IT) security. OCIO continued to improve its
                                 oversight role this year. The most important achievement for the
                                 Department was the implementation of the Cyber Security Assessment
                                 and Management (CSAM) system. The CSAM tool is a comprehensive
                                 Federal Information Security Management Act (FISMA) monitoring
                                 system developed by the Department of Justice. CSAM facilitates the
                                 Department’s ability to identify common threats and vulnerabilities,
                                 supports a security control baseline to achieve FISMA compliance, and
                                 provides comprehensive IT weakness tracking to include:

                                     x    Plans of action and milestones (POA&M) relative to security;1

                                     x    Security categorizations and identification of financial systems;2

                                     x    Identification of core and common controls;

                                     x    Information concerning the application of National Institute of
                                          Standards and Technology (NIST) security controls to meet
                                          FISMA;

                                     x    Results of security control monitoring; and

                                     x    Analyses of compliance information.

                                When fully implemented, CSAM should help in the Department’s effort
                                to alleviate the IT material control weakness. However, until this system
                                is fully populated and the Department’s policies and procedures are in
                                place and are fully operational, IT will continue to be a material
                                weakness.



1
   A POA&M, also referred to as a corrective action plan, is a tool that identifies tasks that need to be accomplished. It details
  resources required to accomplish the elements of the plan, any milestones for keysteps in meeting the task, and scheduled
  completion dates for the milestones. FISMA requires agencies to prepare POA&Ms for security weaknesses at the program and
  system levels.
2
  Security categories are used in conjunction with vulnerability and threat information in assessing the risk to an organization.
    USDA/OIG-A/50501-13-FM                                                                                                Page i
                                 The USDA is a complex organization with 29 separate agencies. We
                                 understand that a robust IT security program takes time to mature. The
                                 Department has continued to improve its security program; however,
                                 more needs to be accomplished. We continue to believe, as we reported
                                 in previous years, that the best approach to correcting the IT control
                                 weaknesses within the Department is to create a plan, with the
                                 cooperation of the agencies, that systematically addresses each issue.

                                 This report constitutes OIG’s independent evaluation of the Department’s
                                 IT security program and practices, as required by FISMA.

                                 The following summarizes the weaknesses discussed in exhibit A of this
                                 report, in which we respond to the Office of Management and Budget
                                 (OMB) questions as required by OMB Memorandum No. M-08-21, FY
                                 2008 Reporting Instructions for the Federal Information Security
                                 Management Act and Agency Privacy Management, dated July 14, 2008.

                                      x    For the last 2 years, we found that the information system
                                           inventory counts were accurate. However, agencies did not
                                           populate the inventory with system interfaces as required by
                                           FISMA.3

                                      x    The POA&M process requires agencies to assess the severity of
                                           weaknesses and prioritize required corrective action. There are
                                           currently over 2,600 POA&Ms in the CSAM; of those we found
                                           683 POA&Ms with a priority of “None” and 500 with a severity
                                           level of “Not Applicable.” In addition, 101 were inappropriately
                                           recorded as “Exclude From OMB” and 50 were cancelled and
                                           recreated in order to extend due dates for corrective action.

                                      x    OCIO improved its concurrency review process in assessing the
                                           quality of the certification and accreditation (C&A),
                                           documentation during fiscal year 2008.4 We found that agencies’
                                           C&A packages generally did not meet NIST requirements.5 The




3
  FISMA Section 3505(c) requires the head of each agency to develop and maintain an inventory of major information systems. Per
  FISMA, the identification of information systems in an inventory under this subsection shall include an identification of the
  interfaces between each such system and all other systems or networks, including those not operated by or under the control of the
  agency. NIST Special Publication (SP) 800-53 control CA-3, requires that the organization must carefully consider the risks that
  may be introduced when systems are connected to other information systems with different security requirements and security
  controls, both within the organization and external to the organization. Risk considerations also include information systems
  sharing the same networks.
4
   The USDA concurrency review is a quality control process by OCIO to review the C&A documentation prior to approving an
  Authority to Operate for the agency IT systems.
5
  NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems, dated May 2004.
    USDA/OIG-A/50501-13-FM                                                                                                 Page ii
                                           packages submitted to OCIO did not always include complete
                                           documentation of all the required C&A elements. 6

                                      x    The Department and its agencies made substantial improvements
                                           in the privacy impact assessment (PIA) process. This process
                                           requires agencies to perform analyses of how personal
                                           information is protected in their IT systems. We found that PIAs
                                           were documented for each system. Agencies appointed Privacy
                                           Officers and OCIO facilitates a monthly meeting to discuss
                                           privacy issues. In addition, privacy training was given to
                                           approximately 92 percent of USDA personnel during the fiscal
                                           year. However, we found that 8 of the 12 System of Records
                                           Notices (SORN) we reviewed were inaccurate or out-of-date. 7

                                      x    OMB Memorandum No. M-07-168 requires that agencies reduce
                                           the volume of personally identifiable information (PII) within
                                           their systems, when possible. It also requires that agencies
                                           encrypt all mobile devices (e.g., laptops). The Department has a
                                           plan for protecting PII, but had not yet fully implemented it. For
                                           example, of the approximate 54,000 laptops within the
                                           Department, we found that 4.23 percent had been fully encrypted.

                                      x    Departmental agencies were not always using the mandated NIST
                                           security configuration checklists when deploying hardware and
                                           software.9 The checklists are tools that contain instructions and/or
                                           procedures for configuring an IT product to an operational
                                           environment to assist in implementing a baseline level of security.
                                           This occurred because agencies were not aware that completing
                                           the checklists was a mandated requirement.

                                      x    On March 27, 2007, OMB required the deployment of the Federal
                                           Desktop Core Configurations (FDCC). FDCC defines the
                                           minimum IT security requirements. For example, it includes
                                           procedures for managing password protection, installing patches,
                                           and performing vulnerability scans for systems that employ
                                           Windows XP and Windows Vista. The Department and its

6
   Agency owners of IT systems are required to submit documentation showing that their systems are secure. For example, in
  addition to other required documents, this documentation should include such items as security categorization documents, risk
  assessments, privacy act assessments, system security plans, security test and evaluation plans, and security assessment reports.
7
  A SORN is a notice provided to the public of the existence and character of a group of any records under the control of an agency
  from which information is retrieved by the name of the individual or by some identifying number, symbol, or other identifying
  particular assigned to the individual. The Privacy Act of 1974 requires this notice to be published in the Federal Register upon
  establishment or substantive revision of a system, and establishes what information about the system must be included.
8
   OMB Memorandum No. M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information,
  dated May 22, 2007.
9
  NIST SP 800-70, Security Configuration Checklists Program for IT Products – Guidance for Checklists, Users and Developers,
  dated May 2005.
    USDA/OIG-A/50501-13-FM                                                                                                Page iii
                                           agencies were diligently testing settings and were in various
                                           stages of deployment. We noted that only approximately 4.63
                                           percent of the Department’s laptops/desktops were fully compliant
                                           with FDCC.

                                      x    The Department and its agencies were not following documented
                                           policies and procedures for identifying and reporting incidents
                                           internally to OCIO and OIG and/or externally to law enforcement
                                           authorities and the U.S. Computer Emergency Readiness Team
                                           (US-CERT). These incidents may involve lost and/or stolen
                                           computers, unauthorized access to an agency’s network, etc. This
                                           occurred because the system used by OCIO to track and manage
                                           incidents was manually intensive and/or members of the incident
                                           response team had not received adequate formal training. As a
                                           result, USDA cannot be assured that all incidents were identified,
                                           and/or that incidents were being properly investigated and
                                           corrected.

                                           We found that 42 of 429 incidents were not reported to OIG. In
                                           addition, our review of 162 incidents over 15 days old disclosed
                                           that agencies had not created the required POA&Ms for 161 of
                                           these incidents. Depending upon the type of incident, this could
                                           result in an extended period of time before the incident is
                                           corrected and potential malicious activity prevented. We also
                                           found instances where documentation supporting the closure of
                                           the incident needed improvement.

                                      x    The Department and its agencies continue to make progress in the
                                           area of Security Awareness Training. Approximately 92 percent
                                           of all USDA employees received the required training during
                                           fiscal year 2008.10 However, not all contractors appeared to be
                                           receiving the required training.

                                      x    We found that USDA was not adequately monitoring and
                                           prohibiting the downloading of peer to peer (P2P) software.11
                                           This occurred because OCIO believed P2P activity did not pose a
                                           significant threat compared to other types of incidents and,
                                           therefore, did not concentrate on this activity. As a result, USDA
                                           networks were vulnerable to damage that could be caused by
                                           malicious software, viruses, and worms imbedded within P2P
                                           files.

10
   Federal Information Security Management Act of 2002; OMB Circular No. A-130, Security of Federal Automated Information
  Resources, dated February 8, 1996; Department Manual (DM) 3545-001, Computer Security Training and Awareness, dated
  February 17, 2005; and OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information, dated May 22, 2006.
11
   P2P is a method of file sharing over a network in which individual computers are linked via the Internet or a private network to
  share programs/files, often illegally. Users download files directly from other users’ computers rather than from a central server.
 USDA/OIG-A/50501-13-FM                                                                                                     Page iv
                                       For example, we found that P2P reports were not distributed to
                                       agencies for almost 5 months of fiscal year 2008. Departmental
                                       policy requires that an incident be reported when P2P activity
                                       exceeds 75 hits per week from/to a single computer. We found
                                       116 instances where P2P activity totaling more than 75
                                       occurrences in 1 week was not declared an incident. In addition,
                                       agencies were not always reviewing the P2P reported activity.

                                   x   NIST and OMB require that a risk assessment be performed prior
                                       to an agency connecting to an e-Authentication (e-Auth) system (a
                                       central authentication point for electronic Government systems) to
                                       determine the level of authentication needed.12 A separate risk
                                       assessment is required to provide assurance that business
                                       transactions have the required level of verification for
                                       authentication. Authentication risks with potentially higher
                                       consequences require higher levels of assurance. For example, a
                                       low level of assurance would only require a user ID and password.
                                       A high level of assurance would require “in-person” methods
                                       approved by OCIO. USDA was not able to provide a complete
                                       and/or accurate listing of systems that used e-Auth. In most
                                       instances, the agencies in our sample told us they were unaware of
                                       any requirement to do an e-Auth risk assessment prior to
                                       connecting to the system. Starting in fiscal year 2009, OCIO
                                       stated that the e-Auth risk assessment will be included in the
                                       overall risk assessment.

                                   x   Departmental guidance requires that agencies perform
                                       vulnerability scans on their IT systems. If vulnerabilities are
                                       identified, management should analyze the vulnerability to
                                       determine if it is willing to accept the risk or corrective action is
                                       needed. If it is determined that corrective action is needed, but
                                       not accomplished within 30 days, a POA&M should be
                                       established.13    The POA&M process assists agencies with
                                       monitoring the timeliness of corrective actions. We found 265
                                       vulnerabilities that existed for over 30 days without recorded
                                       POA&Ms. We also found devices on an agency’s network that
                                       the agency was not aware of and, as a result, that were not
                                       scanned. Vulnerabilities on an agency’s network could result in
                                       systems that are at an unnecessarily high risk of exploitation.




12
   NIST SP 800-63, Electronic Authentication Guideline, dated April 2006; and OMB Memorandum No. 04-04, E-Authentication
 Guidance for Federal Agencies, dated December 2003.
13
   DM 3530-001, Vulnerability Scan Procedures, dated July 20, 2005.
 USDA/OIG-A/50501-13-FM                                                                                         Page v
                                 x   We found that 134 of the 144 disaster recovery plans we reviewed
                                     were not documented in accordance with Federal and
                                     Departartmental guidance.14 This documentation is required to
                                     provide IT security personnel with their detailed roles and
                                     responsibilities in the event of a disaster. Without adequate
                                     documentation, we could not determine whether the plans had
                                     been tested. In addition, the lack of documentation may prevent
                                     an effective continuity of operation plan from being implemented
                                     and impact the agency’s ability to meet its mission.

                                 x   Agencies were not always adequately patching software for
                                     known vulnerabilities. We found over 2,100 missing patches.
                                     Routinely applying patches is an effective method of mitigating
                                     risk and/or correcting identified vulnerabilities.



Recommendations
In Brief                     Recommendations have been reported at the agency level. Therefore, we
                             did not make any recommendations in this report.




14
  NIST SP 800-34, Contingency Planning Guide for Information Technology Systems, dated June 2002; and DM 3570-001,
 Disaster Recovery and Business Resumption Plans, dated February 17, 2005.
 USDA/OIG-A/50501-13-FM                                                                                   Page vi
Abbreviations Used in This Report


ASSERT            Automated Security Self-Evaluation and Remediation Tracking
C&A               certification and accreditation
CCC               Commodity Credit Corporation
CIO               Chief Information Officer
CS                OCIO-Cyber Security
CSAM              Cyber Security Assessment and Management
DA                Departmental Administration
DM                Departmental Manual
e-Auth            e-Authentication
FDCC              Federal Desktop Core Configuration
FIPS              Federal Information Processing Standards Publication
FISMA             Federal Information Security Management Act
FNS               Food and Nutrition Service
FS                Forest Service
FSA               Farm Service Agency
GAO               Government Accountability Office
GISRA             Government Information Security Reform Act
IG                Inspectors General
IT                Information Technology
ITS               Information Technology Services
NASS              National Agricultural Statistics Service
NFC               National Finance Center
NITC              National Information Technology Center
NIST              National Institute of Standards and Technology
NRCS              Natural Resources Conservation Service
OCFO              Office of the Chief Financial Officer
OCIO              Office of the Chief Information Officer
OMB               Office of Management and Budget
OIG               Office of Inspector General
P2P               peer-to-peer
PIA               Privacy Impact Assessment
PII               personally identifiable information
POA&M             plan of action and milestones
SORN              System of Record Notices
SP                Special Publication
SSP               system security plan
US-CERT           United States Computer Emergencies Readiness Team
USDA              U.S. Department of Agriculture
WCTS              Washington Communications and Technology Services



USDA/OIG-A/50501-13-FM                                                          Page vii
Table of Contents

Executive Summary ................................................................................................................................. i

Abbreviations Used in This Report ..................................................................................................... vii

Background and Objectives ................................................................................................................... 1

Scope and Methodology.......................................................................................................................... 4

Exhibit A – OMB Reporting Requirements and USDA OIG Position .............................................. 5




 USDA/OIG-A/50501-13-FM                                                                                                             Page viii
Background and Objectives
Background         Improving the overall management and security of information
                   technology (IT) resources is a top priority in the U.S. Department of
                   Agriculture (USDA). As technology has enhanced the ability to share
                   information instantaneously among computers and networks, it has also
                   made organizations more vulnerable to unlawful and destructive
                   penetration and disruption. Insiders with malicious intent, recreational
                   and institutional hackers, and attacks by intelligence organizations of
                   other countries are just a few of the threats that pose a risk to the
                   Department’s critical systems and data.

                   On December 17, 2002, the President signed into law the E-Government
                   Act (Public Law 107-347), which includes Title III, the Federal
                   Information Security Management Act (FISMA). FISMA permanently
                   reauthorized the framework established in the Government Information
                   Security Reform Act (GISRA) of 2000, which expired in November
                   2002. FISMA continues the annual review and reporting requirements
                   introduced in GISRA. In addition, FISMA includes new provisions
                   aimed at further strengthening the security of the Federal Government’s
                   information and information systems, such as the development of
                   minimum standards for agency systems. The National Institute of
                   Standards and Technology (NIST) has been tasked to work with agencies
                   in the development of those standards per its statutory role in providing
                   technical guidance to Federal agencies.

                   FISMA supplements information security requirements established in the
                   Computer Security Act of 1987, the Paperwork Reduction Act of 1995,
                   and the Clinger-Cohen Act of 1996, and is consistent with existing
                   information security guidance issued by the Office of Management and
                   Budget (OMB) and NIST. Most importantly, however, the provisions
                   consolidate these separate requirements and guidance into an overall
                   framework for managing information security. It establishes new annual
                   reviews, independent evaluation, and reporting requirements to help
                   ensure agency implementation and both OMB and congressional
                   oversight.

                   FISMA assigns specific responsibilities to OMB, agency heads, Chief
                   Information Officers (CIO), and Inspectors General (IG). OMB is
                   responsible for establishing and overseeing policies, standards, and
                   guidelines for information security. This includes the authority to
                   approve agency information security programs. OMB is also required to
                   submit an annual report to Congress summarizing the results of agencies’
                   evaluations of its information security programs.

                   Each agency must establish an agency-wide risk-based information
                   security program to be overseen by the agency CIO to ensure that
                   information security is practiced throughout the lifecycle of each agency
                   system. Specifically, this program must include:
USDA/OIG-A/50501-13-FM                                                               Page 1
                         x   Periodic risk assessments that consider internal and external
                             threats to the integrity, confidentiality, and availability of systems,
                             and to data supporting critical operations and assets;

                         x   development and implementation of risk-based, cost effective
                             policies and procedures to provide security protections for
                             information collected or maintained by or for the agency;

                         x   training on security responsibilities for information security
                             personnel and on security awareness for agency personnel;

                         x   periodic management testing and evaluation of the effectiveness
                             of policies, procedures, controls, and techniques;

                         x   a process for identifying and remediating any significant
                             deficiencies;

                         x   procedures for detecting, reporting, and responding to security
                             incidents; and

                         x   an annual program review by agency program officials.

                   In addition to the responsibilities listed above, FISMA requires each
                   agency to have an annual independent evaluation of its information
                   security program and practices, including control testing and compliance
                   assessment. The evaluations are to be performed by the agency IG or an
                   independent evaluator, and the results of these evaluations are to be
                   reported to OMB.

Objectives         The audit objective was to form a basis for conclusion regarding the
                   status of USDA’s overall IT security program by:

                         x   Evaluating the effectiveness of the Office of the Chief
                             Information Officer’s (OCIO) oversight role of agency CIOs and
                             FISMA compliance;

                         x   determining whether agencies have maintained an adequate
                             system of internal controls over IT assets in accordance with
                             FISMA and other applicable laws and regulations;

                         x   evaluating OCIO’s progress in establishing a Departmentwide
                             security program, which includes effective certifications and
                             accreditations;

                         x   evaluating the agencies and OCIO’s plan of action and milestones
                             consolidation and reporting process;



USDA/OIG-A/50501-13-FM                                                                       Page 2
                                        x    analyzing USDA’s Privacy Act15 documentation to ensure USDA
                                             has adequate safeguards to prevent the intentional or negligent
                                             misuse of, or unauthorized access to, personally identifiable
                                             information; and

                                        x    reviewing the adequacy of e-Authentication risk assessments.




15
     The Privacy Act of 1974, 5 U.S.C. § 552a.
USDA/OIG-A/50501-13-FM                                                                                 Page 3
Scope and Methodology
                                The scope of our review was Departmentwide and included agency audits
                                relating to IT completed during fiscal year 2008. We conducted this audit
                                in accordance with Government Auditing Standards. Those standards
                                require that we plan and perform the audit to obtain sufficient,
                                appropriate evidence to provide a reasonable basis for our findings and
                                conclusions based on our audit objectives. We believe that the evidence
                                obtained provides a reasonable basis for our findings and conclusions
                                based on our audit objectives.

                                Fieldwork for this audit was performed at OCIO from May to September
                                2008. In addition, the results of IT control testing and compliance with
                                laws and regulations performed by contract auditors at three additional
                                agencies are included in this report. Further, the results of our most recent
                                general control and application control reviews were considered and
                                incorporated into this report. In total, our fiscal year 2008 audit work
                                covered eight agencies and/or staff offices: Departmental Administration
                                (DA), Food and Nutrition Service (FNS), Forest Service (FS), Farm
                                Service Agency (FSA), National Agricultural Statistics Service (NASS),
                                Natural Resources Conservation Service (NRCS), Office of the Chief
                                Financial Officer, and OCIO. These agencies and staff offices operate
                                approximately 114 of the OCIO estimated 249 general support and major
                                application systems within the Department.

                                To accomplish our audit objectives, we performed the following
                                procedures.

                                    x    Consolidated the results and issues from our prior IT security
                                         audit work and the work of Office of Inspector General (OIG)
                                         contractors. Contractor audit work consisted primarily of audit
                                         procedures found in the U.S. Government Accountability Office
                                         (GAO) Financial Information System Control Audit Manual;

                                    x    Evaluated the Department’s progress in implementing
                                         recommendations to correct material weaknesses identified in
                                         prior OIG and GAO audit reports;

                                    x    Gathered the necessary information to address the specific
                                         reporting requirements outlined in OMB Memorandum No.
                                         M-08-21, FY 2008 Reporting Instructions for the Federal
                                         Information Security Management Act and Agency Privacy
                                         Management, dated July 14, 2008; and

                                    x   Performed detailed testing specific to FISMA requirements at
                                        selected agencies as detailed in this report.16

16
     DA, OCIO-Washington Communications and Technology Services, and NASS.
USDA/OIG-A/50501-13-FM                                                                               Page 4
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                           Exhibit A – Page 1 of 15

Section C: Inspector General (IG) Questions

   1. In the table below, identify the number of agency and contractor information systems,
      and the number reviewed, by component/bureau and Federal Information Processing
      Standards Publication (FIPS) 199 impact level (high, moderate, low, or not
      categorized).

      As required in the Federal Information Security Management Act (FISMA), the IG
      shall evaluate a representative subset of systems used or operated by an agency or by
      a contractor of an agency or other organization on behalf of an agency.

      Agency systems shall include information systems used or operated by an agency.
      Contractor systems shall include information systems used or operated by a
      contractor of an agency or other organization on behalf of an agency. The total
      number of systems shall include both agency systems and contractor systems.

      Agencies are responsible for ensuring the security of information systems used by a
      contractor of their agency or other organization on behalf of their agency; therefore,
      self-reporting by contractors does not meet the requirements of law. Self-reporting by
      another Federal agency, for example, a Federal service provider, may be sufficient.
      Agencies and service providers have a shared responsibility for FISMA compliance.

      (See table on next page.)




USDA/OIG-A/50501-13-FM                                                                  Page 5
     Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                           Exhibit A – Page 2 of 15

    2.         For the Total Number of Systems identified by Component/Bureau and FIPS system
               impact level in the table for Question 1, identify the number and percentage of
               systems which have a current certification and accreditation (C&A), security controls
               tested and reviewed within the past year, and a contingency plan tested in accordance
               with policy.
                                                 Question 1.                           Question 2. – Agency Reported
                                                                                                     .19
                                                                 1.c.                            2.b                      .20
                                                             Fiscal year                   Number of systems           2.c
                                                             2008 Total           18       for which security Number of systems for
                                                    1.b.     Number of        2.a          controls have been which contingency
Bureau Name (OIG                                Fiscal year   Systems      Number of           tested and     plans have been tested
            17      FIPS 199          1.a.         2008     (Agency and systems certified reviewed in the       in accordance with
   Reviewed)     System Impact Fiscal year 2008 Contractor Contractor    and accredited        past year.              policy
                      Level    Agency Systems     Systems     systems)    As of 9/12/08       As of 9/12/08        As of 9/12/08
                                                         #                      Percent of         Percent of             Percent of
                               Total # # Rev. Total # Rev Total # # Rev Total # Total Total #          Total  Total #       Total
    1.   DA      High           0          0    0      0    0        0   N/A       N/A      N/A        N/A      N/A          N/A

                  Moderate        5        5      0      0     5      5       N/A     N/A      N/A      N/A       N/A        N/A

                  Low             2        2      0      0     2      2       N/A     N/A      N/A      N/A       N/A        N/A
                                                                              N/A     N/A      N/A      N/A       N/A        N/A
                                  7        7      0      0     7      7
                  Sub-total
    2.   FNS                      0        0      0      0     0      0       N/A     N/A      N/A      N/A       N/A        N/A
                  High
                  Moderate        7        3      3      3     10     6       N/A     N/A      N/A      N/A       N/A        N/A

                  Low             1        0      0      0     1      0       N/A     N/A      N/A      N/A       N/A        N/A
                                                                              N/A     N/A      N/A      N/A       N/A        N/A
                                  8        3      3      3     11     6
                  Sub-total
    3.   FS                       1        0      0      0     1      0       N/A     N/A      N/A      N/A       N/A        N/A
                  High
                  Moderate        18       7      2      2     20     9       N/A     N/A      N/A      N/A       N/A        N/A

                  Low             5        0      0      0     5      0       N/A     N/A      N/A      N/A       N/A        N/A
                                                                              N/A     N/A      N/A      N/A       N/A        N/A
                                  24       7      2      2     26     9
                  Sub-total
                  High            0        0      0      0     0      0       N/A     N/A      N/A      N/A       N/A        N/A

                  Moderate        21       2      0      0     21     2       N/A     N/A      N/A      N/A       N/A        N/A
    4.   FSA
                  Low             2        0      0      0     2      0       N/A     N/A      N/A      N/A       N/A        N/A

                  Sub-total       23       2      0      0     23     2       N/A     N/A      N/A      N/A       N/A        N/A




    17
       Departmental Administration (DA), Food and Nutrition Service (FNS), Forest Service (FS), Farm Service Agency (FSA)
       (includes Commodity Credit Corporation (CCC)) National Agricultural Statistics Service (NASS), Natural Resources
       Conservation Service (NRCS), Office of the Chief Financial Officer-National Finance Center (OCFO-NFC), and Office of the
       Chief Information Officer (OCIO) (includes Information Technology Services (ITS), National Information Technology Center
       (NITC), and Washington Communications and Technology Services (WCTS)).
    18
       These numbers are from the Cyber Security Assessment and Management (CSAM) system which is not fully populated. In
       addition, these include fiscal year 2006 and 2007 C&As which OIG has already stated are inadequate, see Question 5. Therefore,
       we do not attest to numbers in this column.
    19
       Office of Inspector General (OIG) cannot determine an accurate number of systems that have self assessments completed. CSAM
       is in the implementation phase and self assessments will not be populated until September 19, 2008, which is after our audit
       timeframes.
    20
       We cannot attest to numbers in this column. Agencies have not completed inputting all documentation into CSAM and have not
       identified all systems tested.
    USDA/OIG-A/50501-13-FM                                                                                                  Page 6
         Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                                     Exhibit A – Page 3 of 15


                                                 Question 1.                                         Question 2. – Agency Reported
                                                                                                                   .23
                                                                                                               2.b                        .24
                                                                      1.c.                    22        Number of systems             2.c
                                                    1.b.       Fiscal year 2008           2.a           for which security Number of systems for
                                                Fiscal year    Total Number of    Number of systems controls have been which contingency plans
                   FIPS 199           1.a.         2008        Systems (Agency       certified and     tested and reviewed     have been tested in
Bureau Name (OIG
            21   System Impact Fiscal year 2008 Contractor     and Contractor         accredited         in the past year.   accordance with policy
  Reviewed)           Level    Agency Systems    Systems           systems)          As of 9/12/08         As of 9/12/08           As of 9/12/08
                                                         #                                 Percent of             Percent of
                               Total # # Rev. Total # Rev      Total #   # Rev    Total #      Total    Total #      Total   Total # Percent of Total
    5.   NASS                                                                      N/A         N/A       N/A          N/A     N/A           N/A
                      High         1        1     0      0        1        1
                  Moderate          5       5      0      0       5        5       N/A       N/A         N/A       N/A       N/A          N/A

                    Low             0       0      0      0       0       0        N/A       N/A         N/A       N/A       N/A          N/A

                  Sub-total         6       6      0      0       6        6       N/A       N/A         N/A       N/A       N/A          N/A
    6.    NRCS         High         0       0      0      0       0        0       N/A       N/A         N/A       N/A       N/A          N/A

                  Moderate          3       3      0      0       3        3       N/A       N/A         N/A       N/A       N/A          N/A

                    Low             0       0      0      0       0       0        N/A       N/A         N/A       N/A       N/A          N/A

                  Sub-total         3       3      0      0       3        3       N/A       N/A         N/A       N/A       N/A          N/A
    7.    OCFO-                                                                    N/A       N/A         N/A       N/A       N/A          N/A
                       High        10       9      0      0      10       9
          NFC
                  Moderate          3       3      0      0       3        3       N/A       N/A         N/A       N/A       N/A          N/A

                    Low             0       0      0      0       0       0        N/A       N/A         N/A       N/A       N/A          N/A

                  Sub-total        13      12      0      0      13       12       N/A       N/A         N/A       N/A       N/A          N/A
    8.    OCIO                                                                     N/A       N/A         N/A       N/A       N/A          N/A
                       High         5       3      0      0       5        3
                  Moderate         14       2      0      0      14       2        N/A       N/A         N/A       N/A       N/A          N/A

                    Low             6       0      0      0       6       0        N/A       N/A         N/A       N/A       N/A          N/A

                     Sub-total     25       5      0      0      25        5       N/A       N/A         N/A       N/A       N/A          N/A
  USDA Totals         High         17      13      0      0      17       13       N/A       N/A         N/A       N/A       N/A          N/A
                                                                                   N/A       N/A         N/A       N/A       N/A          N/A
                    Moderate       76      30      5      5      81       35
                                                                                   N/A       N/A         N/A       N/A       N/A          N/A
                       Low         16       2      0      0      16       2
                      Total        109     45      5      5      114      50       N/A       N/A         N/A       N/A       N/A          N/A




     21
        DA, FNS, FS, FSA (includes CCC), NASS, NRCS, OCFO-NFC, and OCIO (includes ITS, NITC, WCTS).
     22
        These numbers are from the CSAM system which is not fully populated. In addition, these include fiscal year 2006 and 2007
        C&As which OIG has already stated are inadequate, see Question 5. Therefore, we do not attest to numbers in this column.
     23
        OIG cannot determine an accurate number of systems that have self assessments completed. CSAM is in the implementation
        phase and self assessments will not be populated until September 19, 2008, which is after our audit timeframes.
     24
        We cannot attest to numbers in this column. Agencies have not completed inputting all documentation into CSAM and have not
        identified all systems tested.
     USDA/OIG-A/50501-13-FM                                                                                                           Page 7
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                              Exhibit A – Page 4 of 15

3.a. The agency performs oversight and evaluation to ensure information systems used or
     operated by a contractor of the agency or other organization on behalf of the agency
     meet the requirements of FISMA, the Office of Management and Budget (OMB) policy
     and the National Institute of Standards and Technology (NIST) guidelines, national
     security policy, and agency policy.

     Self-reporting NIST Special Publication 800-53 requirements by a contractor or other
     organization is not sufficient; however, self-reporting by another Federal agency may be
     sufficient.

     (OIG’s response is underlined below.)

     Response Categories:

                 x   Rarely, for example, approximately 0-50 percent of the time
                 x   Sometimes, for example, approximately 51-70 percent of the time
                 x   Frequently, for example, approximately 71-80 percent of the time
                 x   Mostly, for example, approximately 81-95 percent of the time
                 x   Almost Always, for example, approximately 96-100 percent of the time

     OCIO relies on agencies to perform oversight and evaluation to ensure information systems
     used or operated by a contractor of the agency or other organization on behalf of the agency
     meet the requirements of FISMA, OMB, and NIST. U.S. Department of Agriculture (USDA)
     employs contractors in many aspects of its system operations. Contractors are used for
     network administration, system development, and as system administrators. We found
     documented evidence that oversight of contractor systems was being accomplished.

3.b. The agency has developed a complete inventory of major information systems
     (including major national security systems) used or operated by an agency or a
     contractor or other organization on behalf of the agency, including an identification of
     the interfaces between each such system and all other systems or networks, including
     those not operated by or under the control of the agency.

     (OIG’s response is underlined below.)

     Response Categories:

                 x   The inventory is approximately 0-50 percent complete
                 x   The inventory is approximately 51-70 percent complete
                 x   The inventory is approximately 71-80 percent complete
                 x   The inventory is approximately 81-95 percent complete
                 x   The inventory is approximately 96-100 percent complete



USDA/OIG-A/50501-13-FM                                                                       Page 8
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                             Exhibit A – Page 5 of 15

         The efforts of the USDA’s OCIO and OIG in the past several years have continued to
         heighten program managers’ awareness of the need to plan and implement effective
         information technology (IT) security. OCIO continued to improve its oversight role this year.
         The most important achievement for the Department was the implementation of the Cyber
         Security Assessment and Management (CSAM) system. The CSAM tool is a comprehensive
         Federal Information Security Management Act (FISMA) monitoring system developed by the
         Department of Justice. CSAM facilitates the Department’s ability to identify common threats
         and vulnerabilities, supports a security control baseline to achieve FISMA compliance, and
         provides comprehensive IT weakness tracking to include:

                           x    Plans of action and milestones (POA&M) relative to security;25

                           x    Security categorizations and identification of financial systems;

                           x    Identification of core and common controls;

                           x    Information concerning the application of NIST security controls to meet
                                FISMA;

                           x    Results of security control monitoring; and

                           x    Analyses of compliance information.
         When fully implemented, CSAM will help in the Department’s effort to alleviate material IT
         control weakness. However, until this tool is fully populated and the Department has policies
         and procedures in place and are fully operational, IT will continue to be a material weakness.
         For the last 2 years, we found that the information system inventory counts were accurate.
         However, agencies did not populate the inventory with system interfaces as required by
         FISMA.26

         We considered the system inventory to be accurate; however, proper annotation of all
         interfaces is an integral part of any inventory. Therefore, we are assigning inventory with an
         overall 81 to 95 percent completion percentage.




25
     A POA&M, also referred to as a corrective action plan, is a tool that identifies tasks that need to be accomplished. It details
     resources required to accomplish the elements of the plan, any milestones in meeting the task, and scheduled completion dates for
     the milestones. FISMA requires agencies to prepare POA&Ms for security weaknesses at the program and system levels.
26
     FISMA Section 3505(c) requires the head of each agency to develop and maintain an inventory of major information systems.
     Per FISMA, the identification of information systems in an inventory under this subsection shall include an identification of the
     interfaces between each such system and all other systems or networks, including those not operated by or under the control of the
     agency. NIST Special Publication (SP) 800-53 control CA-3, requires that the organization must carefully consider the risks that
     may be introduced when systems are connected to other information systems with different security requirements and security
     controls, both within the organization and external to the organization. Risk considerations also include information systems
     sharing the same networks.
USDA/OIG-A/50501-13-FM                                                                                                        Page 9
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                               Exhibit A – Page 6 of 15

3.c. The IG generally agrees with the Chief Information Officer (CIO) on the number of
     agency-owned systems. Yes or No.

3.d. The IG generally agrees with the CIO on the number of information systems used or
     operated by a contractor of the agency or other organization on behalf of the agency.
     Yes or No.

3.e. The agency inventory is maintained and updated at least annually. Yes or No.

3.f. If agency IG does not evaluate the agency’s inventory as 96-100 percent complete,
     please list by system name, Component/Bureau, and the Unique Project Identifier (if
     known); and indicate if the system is an agency or contractor system.

      Component/Bureau          System Name              Exhibit 53 UPI            Agency or
                                                         (must be 23-digits)       Contractor
                                                                                   system?




      Number of known systems missing from
      inventory:


     As noted above, the inventory count and system listing is correct; however, system interfaces
     are not defined. There are no missing systems for question 3.f., just missing interfaces.

4.   Evaluation of Agency Plan of Action and Milestones (POA&M) Process

     Assess whether the agency has developed, implemented, and is managing an
     agency-wide POA&M process. Evaluate the degree to which each statement reflects the
     status in your agency by choosing from the responses provided. If appropriate or
     necessary, include comments in the area provided. (OIG’s response is underlined.)

     The Department must rely on the individual agencies to create POA&Ms for security
     weaknesses found, properly prioritize them, and follow through with corrective actions. The
     Department has concentrated this year on getting CSAM implemented and populated. The
     system is not yet fully populated and policies and procedures for Departmental oversight have
     yet to be determined or implemented.




USDA/OIG-A/50501-13-FM                                                                      Page 10
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                     Exhibit A – Page 7 of 15

         The POA&M process continues to need improvement. Agencies are required to assess the
         severity of weaknesses and prioritize required corrective action. There are currently over
         2,600 POA&Ms in the CSAM; we found 683 POA&Ms with a priority of “None” and 500
         with a severity level of “Not Applicable.” In addition, 101 were inappropriately recorded as
         “Exclude From OMB” and 50 were cancelled and recreated in order to extend due dates for
         corrective action.

         We also found 265 vulnerabilities over 30 days old in which the agencies had not created
         POA&Ms as required by Departmental guidance.27

 4.a. The POA&M is an agency-wide process, incorporating all known IT security
      weaknesses associated with information systems used or operated by the agency or by a
      contractor of the agency or other organization on behalf of the agency. (OIG’s response
      is underlined below.) Response Categories:

                          x   Rarely, for example, approximately 0-50 percent of the time
                          x   Sometimes, for example, approximately 51-70 percent of the time
                          x   Frequently, for example, approximately 71-80 percent of the time
                          x   Mostly, for example, approximately 81-95 percent of the time
                          x   Almost Always, for example, approximately 96-100 percent of the time
         As noted above, we found 265 vulnerabilities over 30 days old in which the agencies had not
         created POA&Ms as required by Departmental guidance.

4.b. When an IT security weakness is identified, program officials (including CIOs, if they
     own or operate a system) develop, implement, and manage POA&Ms for their
     system(s). (OIG’s response is underlined below.) Response Categories:

                          x   Rarely, for example, approximately 0-50 percent of the time
                          x   Sometimes, for example, approximately 51-70 percent of the time
                          x   Frequently, for example, approximately 71-80 percent of the time
                          x   Mostly, for example, approximately 81-95 percent of the time
                          x   Almost Always, for example, approximately 96-100 percent of the time
         As noted in our response to Question 4, it is the overall management of POA&Ms
         (prioritizing, determining the severity, timely recording, and completing corrective action)
         that needs improvement within the Department.

4.c. Program officials and contractors report their progress on security weakness
     remediation to the CIO on a regular basis (at least quarterly). (OIG’s response is
     underlined below.) Response Categories:




27
     Departmental Manual 3530-001, Vulnerability Scan Procedures, Appendix A, dated July 20, 2005.
USDA/OIG-A/50501-13-FM                                                                                             Page 11
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                             Exhibit A – Page 8 of 15

                 x   Rarely, for example, approximately 0-50 percent of the time
                 x   Sometimes, for example, approximately 51-70 percent of the time
                 x   Frequently, for example, approximately 71-80 percent of the time
                 x   Mostly, for example, approximately 81-95 percent of the time
                 x   Almost Always, for example, approximately 96-100 percent of the time

     As noted in our response to Question 4, it is the overall management of POA&Ms
     (prioritizing, determining the severity, timely recording, and completing corrective action)
     that needs improvement within the Department.

4.d. Agency CIO centrally tracks, maintains, and reviews POA&M activities on at least a
     quarterly basis. (OIG’s response is underlined below.) Response Categories:

                 x   Rarely, for example, approximately 0-50 percent of the time
                 x   Sometimes, for example, approximately 51-70 percent of the time
                 x   Frequently, for example, approximately 71-80 percent of the time
                 x   Mostly, for example, approximately 81-95 percent of the time
                 x   Almost Always, for example, approximately 96-100 percent of the time

     As noted in our response to Question 4, this year the Department has concentrated on
     implementing a new system that will provide improved oversight in the future. However,
     the policies and procedures for this oversight have not been developed and implemented
     because CSAM is a new tool that the Department is still in the process of implementing.

4.e. IG findings are incorporated into the POA&M process. (OIG’s response is underlined
     below.)

     Response Categories:

                 x   Rarely, for example, approximately 0-50 percent of the time
                 x   Sometimes, for example, approximately 51-70 percent of the time
                 x   Frequently, for example, approximately 71-80 percent of the time
                 x   Mostly, for example, approximately 81-95 percent of the time
                 x   Almost Always, for example, approximately 96-100 percent of the time

4.f. POA&M process prioritizes information technology (IT) security weaknesses to help
     ensure significant IT security weaknesses are addressed in a timely manner and receive
     appropriate resources. (OIG’s response is underlined below.)




USDA/OIG-A/50501-13-FM                                                                     Page 12
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                 Exhibit A – Page 9 of 15

      Response Categories:

                      x    Rarely, for example, approximately 0-50 percent of the time
                      x    Sometimes, for example, approximately 51-70 percent of the time
                      x    Frequently, for example, approximately 71-80 percent of the time
                      x    Mostly, for example, approximately 81-95 percent of the time
                      x    Almost Always, for example, approximately 96-100 percent of the time

       As noted in our response to Question 4, we found of the 848 open POA&Ms, 683 were
       recorded with a priority of “None,” and 500 were recorded with a severity level of “Not
       Applicable.”

5.    IG Assessment of the Certification and Accreditation (C&A) Process

      Agencies shall follow NIST Special Publication (SP) 800-37, Guide for the Security
      Certification and Accreditation of Federal Information Systems, dated May 2004 for
      C&A work initiated after May 2004. This includes use of the FIPS 199, Standards for
      Security Categorization of Federal Information and Information Systems, dated February
      2004 to determine a system impact level, as well as associated NIST document used as
      guidance for completing risk assessments and security plans.

      The OCIO has worked diligently to raise the level of quality of the C&A documentation. The
      concurrency review process it has implemented is an important and necessary quality
      assurance step. 28 The process had been accurately annotating where the C&A documentation
      has not met required standards. But, agencies are responsible for the quality of the C&A
      documentation and following NIST guidance. 29 OCIO has given seminars on C&A best
      practices and lessons learned to agencies in an attempt to upgrade the quality of that
      submitted documentation. Unfortunately, it has not worked and agency submitted
      documentation continues to be lacking. This lack of quality submitted documentation has
      cost the OCIO much time and resources to review and comment on what it has received. It
      has slowed down the C&A process and created a backlog. This has impacted concurrency
      review process timeframes and quality. We found that agencies’ C&A packages submitted
      generally did not meet NIST requirements.

5.a. The IG rates the overall quality of the agency’s C&A process as:

      Response Categories:




28
   The USDA concurrency review is a quality control process by OCIO to review the C&A documentation prior to approving an
   agency’s Authority to Operate its IT systems.
29
   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal Information Systems, dated May 2004.
USDA/OIG-A/50501-13-FM                                                                                         Page 13
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                           Exhibit A – Page 10 of 15

                 x    Excellent
                 x    Good
                 x    Satisfactory
                 x    Poor
                 x    Failing

5.b. The IG’s quality rating included or considered the following aspects of the C&A
     process: (check all that apply)

                                  Security Plan                                                X
                                  System impact level                                          X
                                  System test and evaluation                                   X
                                  Security control testing                                     X
                                  Incident handling                                            X
                                  Security awareness training                                  X
                                  Configurations/patching                                      X
                                  Other:                                                       X

6-7. IG Assessment of Agency’s Privacy Program and Privacy Impact Assessment (PIA)
     Process

6.        Provide a qualitative assessment of the agency’s PIA process, as discussed in Section D
          Question 5, including adherence to existing policy, guidance, and standards.

          Assess the overall quality of the Department’s PIA policies.

          Response Categories:

                 x    Excellent
                 x    Good
                 x    Satisfactory
                 x    Poor
                 x    Failing

           The Department and OCIO made substantial improvements in the PIA process. This process
           requires agencies to perform analyses of how personal information is protected in their IT
           systems. We found that PIAs were documented for each system. Agencies appointed
           Privacy Officers and OCIO facilitates a monthly meeting to discuss privacy issues. In
           addition, privacy training was given to approximately 92 percent of USDA personnel during
           the fiscal year. However, we found that 8 of the 12 System of Records Notices (SORN) we
           reviewed were inaccurate or out-of-date. 30
30
     A SORN is a statement providing to the public notice of the existence and character of a group of any records under the control of
     an agency from which information is retrieved by the name of the individual or by some identifying number, symbol, or other
     identifying particular assigned to the individual. The Privacy Act of 1974 requires this notice to be published in the Federal
     Register upon establishment or substantive revision of the system, and establishes what information about the system must be
     included.
USDA/OIG-A/50501-13-FM                                                                                                       Page 14
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                 Exhibit A – Page 11 of 15

7.       Provide a qualitative assessment of the agency’s progress to date in implementing the
         provisions of OMB Memorandum M-07-16, Safeguarding Against and Responding to the
         Breach of Personally Identifiable Information, dated May 22, 2007.

         Response Categories:

                x   Excellent
                x   Good
                x   Satisfactory
                x   Poor
                x   Failing

         OMB Memorandum M-07-16 is a complex document with many different requirements.
         There are four attachments that discuss topics on how to safeguard PII data. The four
         attachments and how the Department is handling each is discussed below.

         Attachment 1-Safeguarding Against the Breach of PII

               x    Privacy Act Requirements - requires that agencies reduce the volume of PII within
                    their systems, when possible. It also requires that agencies encrypt all mobile
                    devices. This is discussed in Question 6 of this document.

               x    Security Requirements – requires that agencies implement controls over encryption,
                    remote access, time-out, log-out functionalities, and adequate C&A documentation.
                    This is discussed in Question 5 of this document.

         OMB Memorandum No. M-07-1631 requires that agencies reduce the volume of PII within
         their systems, when possible. It also requires that agencies encrypt all mobile devices (e.g.,
         laptops). The Department has a plan for protecting PII, but had not yet fully implemented it.
         For example, of the approximate 54,000 laptops within the Department, we found that 4.23
         percent had been fully encrypted.

         Attachment 2-Incident Reporting and Handling Requirements

               x    This requirement discusses how PII incidents are being handled by the Department.
                    This is answered in Question 9 of this document.

         Attachment 3-External Breach Notification

               x    This requires that agencies develop a breach notification policy and plan. This is
                    answered in Question 9 of this document.


31
     OMB Memorandum No. M-07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable Information,
     dated May 22, 2007.
USDA/OIG-A/50501-13-FM                                                                                           Page 15
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                     Exhibit A – Page 12 of 15

          Attachment 4-Rules and Consequences

               x    This requirement addresses how managers, supervisors and employees are to be
                    informed and trained regarding their respective responsibilities relative to
                    safeguarding PII information and the consequences for violation of these
                    responsibilities. This is answered in Question 10 of this document.

8.       Configuration Management

8.a. Is there an agency-wide security configuration policy? Yes or No.

          Departmentwide configuration policies and procedures are readily available for all systems
          on the OCIO website.

8.b. Approximate the extent to which applicable systems implement common security
     configurations, including use of common security configurations available from the
     NIST’s website at http://checklists.nist.gov.

         Departmental agencies were not always using the mandated NIST security configuration
         checklists when deploying hardware and software.32 The checklists are tools that contain
         instructions and/or procedures for configuring an IT product to an operational environment to
         assist in implementing a baseline level of security. This occurred because agencies were not
         always aware that completing the checklist was a mandated requirement.

         Response Categories:

                          x   Rarely, for example, approximately 0-50 percent of the time
                          x   Sometimes, for example, approximately 51-70 percent of the time
                          x   Frequently, for example, approximately 71-80 percent of the time
                          x   Mostly, for example, approximately 81-95 percent of the time
                          x   Almost Always, for example, approximately 96-100 percent of the time




32
     NIST SP 800-70, Security Configuration Checklists Program for IT Products – Guidance for Checklists, Users and Developers,
     dated May 2005.
USDA/OIG-A/50501-13-FM                                                                                               Page 16
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                               Exhibit A – Page 13 of 15


8.c. Indicate which aspects of Federal Desktop Core Configurations (FDCC) have been
     implemented as of this report:

     On March 27, 2007, OMB required the deployment of the Federal Desktop Core
     Configurations (FDCC). FDCC defines the minimum IT security requirements. For
     example, it includes procedures for managing password protection, installing patches, and
     performing vulnerability scans for systems that employ Windows XP and Windows Vista.
     The Department and its agencies were diligently testing settings and were in various stages of
     deployment. We noted that approximately 4.63 percent of the Department’s laptops/desktops
     were fully compliant with FDCC.

     In addition, the implementation of the required Federal Acquisition Regulation language
     pertaining to the FDCC has not been incorporated into USDA procurement documents.

     8.c.1.   Agency has adopted and implemented FDCC standard configurations and has
              documented deviations. (OIG’s response is underlined.) Yes or No.

     8.c.2.   New Federal Acquisition Regulation 2007-004 language, which modified “Part
              39 – Acquisition of Information Technology,” is included in all contracts
              related to common security settings. (OIG’s response is underlined.) Yes or
              No.

     8.c.3.   All Windows XP and VISTA computing systems have implemented the FDCC
              security settings. (OIG’s response is underlined.) Yes or No.

9.   Incident Reporting

     Indicate whether or not the agency follows documented policies and procedures for
     reporting incidents internally, to US-CERT, and to law enforcement. If appropriate or
     necessary, include comments in the area provided below.

     USDA was not following documented policies and procedures for identifying and reporting
     incidents internally to OCIO and OIG and/or externally to law enforcement authorities and
     the U.S. Computer Emergency Readiness Team (US-CERT). These incidents may involve
     lost and/or stolen computers, unauthorized access to an agency’s network, etc. This occurred
     because the system used by OCIO to track and manage incidents was manually intensive
     and/or members of the incident response team had not received adequate formal training. As
     a result, USDA cannot be assured that all incidents were identified, and/or that incidents were
     being properly investigated and corrected.

     We found that 42 of 429 incidents were not reported to OIG. In addition, our review of 162
     incidents over 15 days old disclosed that agencies had not created the required POA&Ms for
     161 of these incidents. Depending upon the type of incident, this could result in an extended


USDA/OIG-A/50501-13-FM                                                                        Page 17
 Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                            Exhibit A – Page 14 of 15


          period of time before the incident is corrected and potential malicious activity prevented. We
          also found instances where documentation supporting the closure of the incident needed
          improvement. For example, we found incidents that had been closed without any
          documentation supporting the closure.

9.a. The agency follows documented policies and procedures for identifying and reporting
     incidents internally. (OIG’s response is underlined.) Yes or No.

9.b. The agency follows documented policies and procedures for external reporting to US-
     CERT. (http://www.us-cert/gov) (OIG’s response is underlined.) Yes or No.

9.c. The agency follows documented policies and procedures for external reporting to law
     enforcement authorities. (OIG’s response is underlined.) Yes or No.

10. Security Awareness Training

          Has the agency ensured security awareness training of all employees, including
          contractors and those employees with significant IT security responsibilities?

          We found that the Department and its agencies continue to make progress in ensuring that all
          USDA employees are provided the Security Awareness and Privacy Act training.
          Approximately 92 percent of all USDA employees received the required training during
          fiscal year 2008. However, not all contractors appeared to be receiving the required training.

          Response Categories:

                           x    Rarely, for example, approximately 0-50 percent of the time
                           x    Sometimes, for example, approximately 51-70 percent of the time
                           x    Frequently, for example, approximately 71-80 percent of the time
                           x    Mostly, for example, approximately 81-95 percent of the time
                           x    Almost Always, for example, approximately 96-100 percent of the time

11. Collaborative Web Technologies and Peer-to-Peer File Sharing

          We found that USDA was not adequately monitoring and prohibiting the downloading of
          peer to peer (P2P) software.33 This occurred because OCIO believed P2P activity did not
          pose a significant threat compared to other types of incidents; and therefore, did not
          concentrate on this activity. As a result, USDA networks were vulnerable to damage that
          could be caused by malicious software, viruses, and worms imbedded within P2P files.




33
     P2P is a method of file sharing over a network in which individual computers are linked via the Internet or a private network to
     share programs/files, often illegally. Users download files directly from other users’ computers rather than from a central server.
USDA/OIG-A/50501-13-FM                                                                                                        Page 18
Exhibit A – OMB Reporting Requirements and USDA OIG Position
                                                                                                  Exhibit A – Page 15 of 15

         For example, we found that P2P reports were not distributed to agencies for almost 5 months
         of fiscal year 2008. Departmental policy requires that an incident be reported when P2P
         activity exceeds 75 hits per week to a single computer. We found 116 instances where P2P
         activity totaling more than 75 occurrences in 1 week was not declared an incident. In
         addition, agencies were not always reviewing the P2P reported activity.

         Does the agency explain policies regarding the use of collaborative web technologies and
         peer-to-peer file sharing in IT security awareness training, ethics training, or any other
         agency-wide training? OIG’s response is underlined.) Yes or No.

12. e-Authentication (e-Auth) Risk Assessments

12.a. Has the agency identified all e-Auth applications and validated that the applications
      have operationally achieved the required assurance level in accordance with the NIST
      SP 800-63, Electronic Authentication Guidelines? (OIG’s response is underlined.) Yes or
      No.

12.b. If the response is “No,” then please identify the systems in which the agency has not
      implemented the e-Auth guidance and indicate if the agency has a planned date of
      remediation.

         NIST and OMB require that a risk assessment be performed prior to an agency connecting to
         an e-Authentication (e-Auth) system (a central authentication point for electronic
         Government systems) to determine the level of authentication needed.34 A separate risk
         assessment is required to provide assurance that business transactions have the required level
         of verification for authentication. Authentication risks with potentially higher consequences
         require higher levels of assurance. For example, a low level of assurance would only require
         a user ID and password. A high level of assurance would require “in-person” methods
         approved by OCIO. USDA was not able to provide a complete and/or accurate listing of
         systems that used e-Auth. In most instances, the agencies in our sample told us they were
         unaware of any requirement to do an e-Auth risk assessment prior to connecting to the
         system. Starting in fiscal year 2009, OCIO stated that the e-Auth risk assessment will be
         included in the overall risk assessment.




34
     NIST SP 800-63, Electronic Authentication Guideline, dated April 2006; and OMB Memorandum No. 04-04, E-Authentication
     Guidance for Federal Agencies, dated December 2003.
USDA/OIG-A/50501-13-FM                                                                                           Page 19
